Case: 19-11000

Document: 00515633217

Page: 1

Date Filed: 11/10/2020

United States Court of Appeals
for the Fifth Circuit
No. 19-11000

A True Copy
Certified order issued Nov 10, 2020

Clerk, U.S. Court of Appeals, Fifth Circuit

United States of America,

Plaintiff—Appellee,
versus
Rodney B. Allen,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CV-336
ORDER:
Rodney B. Allen, federal prisoner # 28935-077, was convicted of
possession of a firearm by a convicted felon and sentenced to 293 months of
imprisonment and five years of supervised release.

Allen now seeks a

certificate of appealability (COA) to appeal the district court’s merits denial
of his authorized successive 28 U.S.C. § 2255 motion challenging his Armed
Career Criminal Act (ACCA) sentence enhancement based on the Supreme
Court’s decision in Johnson v. United States, 576 U.S. 591 (2015).
Reasonable jurists would not debate that Allen failed to show that it
was more likely than not that he was sentenced under the ACCA’s residual
clause. See Slack v. McDaniel, 529 U.S. 473, 484 (2000); United States v.
Allen v. United States
Petition Appendix

1a

Case: 19-11000

Document: 00515633217

Page: 2

Date Filed: 11/10/2020

No. 19-11000

Clay, 921 F.3d 550, 558-59 (5th Cir. 2019), cert. denied, 140 S. Ct. 866 (2020).
Therefore, he has failed to show that the issues presented deserve
encouragement to proceed further. See Slack, 529 U.S. at 484. Accordingly,
Allen’s COA motion is DENIED.
___________________________
CORY T. WILSON
United States Circuit Judge

2

Allen v. United States
Petition Appendix

2a

Case: 16-10399

Document: 00513598335

Page: 1

Date Filed: 07/19/2016

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 16-10399

A True Copy
Certified order issued Jul 19, 2016

In re: RODNEY BERNARD ALLEN,
Movant

Clerk, U.S. Court of Appeals, Fifth Circuit

Motion for an order authorizing
the United States District Court for the
Northern District of Texas, Dallas to consider
a successive 28 U.S.C. § 2255 motion
Before JOLLY, GRAVES, and COSTA, Circuit Judges.
PER CURIAM:
In these consolidated cases, the Federal Public Defender (FPD) for the
Northern District of Texas has moved to be appointed as counsel on behalf of,
and at the request of, Rodney Bernard Allen, federal prisoner # 28935-077.
The FPD has also filed a motion on Allen’s behalf for authorization to file a
successive 28 U.S.C. § 2255 motion based on the Supreme Court’s recent
decisions in Johnson v. United States, 135 S. Ct. 2551 (2015), which held that
the

Armed

Career

Criminal

Act’s

(ACCA)

residual

clause

was

unconstitutionally vague and Welch v. United States, 136 S. Ct. 1257, 1265
(2016), which determined that Johnson is retroactively applicable to cases on
collateral review. If granted authorization, Allen would challenge the district
court’s enhancement of his sentence under the ACCA based on his three prior
Texas convictions for robbery and aggravated robbery with a deadly weapon.

Allen v. United States
Petition Appendix

3a

Case: 16-10399

Document: 00513598335

Page: 2

Date Filed: 07/19/2016

No. 16-10399
c/w No. 16-10740
This court will not grant authorization to file a successive § 2255 motion
absent a prisoner’s prima facie showing that his claim relies on either
(1) “newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have found [him] guilty of the
offense” or (2) “a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.”
§ 2255(h); see 28 U.S.C. § 2244(b)(3)(C); Reyes-Requena v. United States, 243
F.3d 893, 899 (5th Cir. 2001). Allen has made “a sufficient showing of possible
merit to warrant a fuller exploration by the district court.” Reyes-Requena, 243
F.3d at 899 (internal quotation marks and citation omitted).
Accordingly, IT IS ORDERED that the motion for authorization to file a
successive § 2255 motion is GRANTED. Our grant of authorization is tentative
in that the district court must dismiss the § 2255 motion without reaching the
merits if it determines that Allen has failed to make the showing required to
file such a motion. See 28 U.S.C. § 2244(b)(4); Reyes-Requena, 243 F.3d at 899.
We express no opinion as to what decisions the district court should make. IT
IS FURTHER ORDERED that the FPD’s motion for the appointment of
counsel is GRANTED.
The Clerk is DIRECTED to transfer the § 2255 motion and related
pleadings to the district court for filing as of the date the § 2255 motion was
initially filed in the district court. See Dornbusch v. Comm’r, 860 F.2d 611,
612-15 (5th Cir. 1988).

Allen v. United States
Petition Appendix

2
4a

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 1 of 6 PageID 95

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
RODNEY B. ALLEN,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)

No. 3:16-CV-336-K
No. 3:96-CR-256-K (1)

MEMORANDUM OPINION AND ORDER
Before the Court is Rodney B. Allen’s (Movant) motion to vacate, set-aside, or
correct sentence pursuant 28 U.S.C. § 2255. For the following reasons, the Court denies
the motion.
I. BACKGROUND
After a jury trial, Movant was convicted of being a felon in possession of a firearm
in violation of 18 U.S.C. §§ 922(g)(1) and 924(e). He was subject to a sentence
enhancement under the Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e),
because he had a conviction for Texas robbery and two convictions for Texas aggravated
robbery. He was sentenced to 293 months’ imprisonment. The judgment was affirmed
on appeal. United States v. Allen, 136 F.3d 137 (5th Cir. 1998), cert. denied, 118 S. Ct.
1399 (1998). Movant’s first 28 U.S.C. § 2255 motion was dismissed as barred by the
statute of limitations. Allen v. United States, No. 3:05-CV-1477-K (N.D. Tex. Jan. 16,
2006).
The Fifth Circuit authorized a successive § 2255 motion on the issue of whether
his sentence under the ACCA was proper in light of Johnson v. United States, 135 S.Ct.

Allen v. United States
Petition Appendix

5a

19-11000.1078

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 2 of 6 PageID 96

2551 (2015). In re Allen, No. 16-10399 (5th Cir. Jul. 19, 2016). Although Movant is
now on supervised release, his § 2255 motion is not moot, because if a ground regarding
alleged sentencing error has merit and the movant is on supervised release, a court may
grant relief in the form of a reduction in the term of supervised release. See Johnson v.
Pettiford, 442 F.3d 917, 918 (5th Cir. 2006) (the possibility that the district court may
alter the period of supervised release based on the petitioner having served excess prison
time, prevents a habeas petition from being moot).
II. SCOPE OF RELIEF AVAILABLE UNDER § 2255
“Relief under 28 U.S.C. § 2255 is reserved for transgressions of constitutional
rights and for a narrow range of injuries that could not have been raised on direct appeal
and would, if condoned, result in a complete miscarriage of justice.” United States v.
Gaudet, 81 F.3d 585, 589 (5th Cir. 1996) (citations and internal quotation marks
omitted). It is well-established that “a collateral challenge may not do service for an
appeal.” United States v. Shaid, 937 F.2d 228, 231 (5th Cir. 1991) (en banc) (quoting
United States v. Frady, 456 U.S. 152, 165 (1982)).
III. ARMED CAREER CRIMINAL ACT
Movant contends that his sentence should not have been enhanced under the
Armed Career Criminal Act (ACCA) for his prior Texas robbery and aggravated robbery
convictions.
Federal law forbids certain people—such as convicted felons, persons

2

Allen v. United States
Petition Appendix

6a

19-11000.1079

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 3 of 6 PageID 97

committed to mental institutions, and drug users—to ship, possess, and
receive firearms. § 922(g). In general, the law punishes violation of this
ban by up to 10 years’ imprisonment. § 924(a)(2). But if the violator has
three or more earlier convictions for a “serious drug offense” or a “violent
felony,” [Section 924 of ] the Armed Career Criminal Act increases his
prison term to a minimum of 15 years and a maximum of life. § 924(e)(1);
Johnson v. United States, 559 U.S. 133, 136, 130 S.Ct. 1265, 176 L.Ed.2d
1 (2010). The Act defines “violent felony” as follows”
any crime punishable by imprisonment for a term exceeding one
year ... that—
(i) has as an element the use, attempted use, or threatened use of
physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or
otherwise involves conduct that presents a serious potential risk of physical
injury to another. § 924(e)(2)(B) (emphasis added).
Johnson, 135 S.Ct. at 2555-56. Subsection (i) is known either as the force clause, United
States v. Lerma, 877 F.3d 628, 630 (5th Cir. 2017), or as the elements clause, United
States v. Taylor, 873 F.3d 476, 477 n.1 (5th Cir. 2017). The four offenses listed in
subsection (ii) are referred to as the “enumerated offenses,” see United States v. Davis, 487
F.3d 282, 285 (5th Cir. 2007), or as the “enumerated offenses clause,” Taylor, 873 F.3d
at 477 n.1. The remainder of the subsection is known as the “residual clause,” Johnson,
135 S.Ct. 2555-56.
Johnson held that the imposition of an increased sentenced under ACCA’s residual
clause violates the Constitution’s guarantee of due process because the residual clause
is unconstitutionally vague. Johnson, 135 S. Ct. at 2563. This holding is retroactively

3

Allen v. United States
Petition Appendix

7a

19-11000.1080

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 4 of 6 PageID 98

available on collateral review. Welch v. United States, 136 S.Ct. 1257, 1268 (2016). After
Johnson, a crime is a violent felony under ACCA only if it is one of the enumerated
offenses, or if it qualifies under the force clause. United States v. Moore, 711 F. App’x
757, 759 (5th Cir. 2017) (per curiam).
A.

Texas Robbery
The Texas robbery statute under which Movant was convicted provided in part:
(a) A person commits an offense if, in the course of committing theft as
defined in Chapter 31 and with intent to obtain or maintain control of the
property, he:
(1) intentionally, knowingly, or recklessly causes bodily injury to
another; or
(2) intentionally or knowingly threatens or places another in fear of
imminent bodily injury or death.

Tex. Penal Code § 29.02(a).
The Fifth Circuit has recently held that Texas robbery is a violent felony under
the ACCA, regardless of whether the offense was committed by injury or by threat of
injury. United States v. Burris, 920 F.3d 942, 948-958 (5th Cir. 2019).
B.

Texas Aggravated Robbery
The Texas aggravated robbery statute under which Movant was convicted

provided in part:
(a) A person commits an offense if he commits robbery as defined in
Section 29.02, and he:

4

Allen v. United States
Petition Appendix

8a

19-11000.1081

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 5 of 6 PageID 99

(1) causes serous bodily injury to another;
(2) uses or exhibits a deadly weapon; or
(3) causes bodily injury to another person or places another in fear of
imminent bodily injury or death, if the other person is:
(A) 65 years of age or older; or
(B) a disabled person.
Tex. Penal Code § 29.03(a).
Texas aggravated robbery is a violent felony under the ACCA. See United States
v. Nunez-Medrano, 751 Fed. Appx. 494, 497 (5th Cir. 2018); United States v. Lerma,
877 F.3d 628, 633-36 (5th Cir. 2017). Because robbery is a necessary element of
aggravated robbery, see Lerma, 877 F.3d at 633-34, and robbery is a violent felony, see
Burris, 920 F.3d at 948-958, it necessarily follows that aggravated robbery is a violent
felony.
IV. CONCLUSION
For the foregoing reasons, the § 2255 motion is DENIED with prejudice.
In accordance with Fed. R. App. P. 22(b) and 28 U.S.C. § 2253(c) and after
considering the record in this case, the movant is DENIED a Certificate of Appealability.
The movant has failed to show (1) that reasonable jurists would find this Court’s
“assessment of the constitutional claims debatable or wrong,” or (2) that reasonable
jurists would find “it debatable whether the petition states a valid claim of the denial of

5

Allen v. United States
Petition Appendix

9a

19-11000.1082

Case 3:16-cv-00336-K Document 17 Filed 07/09/19

Page 6 of 6 PageID 100

a constitutional right” and “debatable whether [this Court] was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
If the movant files a notice of appeal, she must pay the $505.00 appellate filing
fee or submit a motion to proceed in forma pauperis and a properly signed certificate of
inmate trust account.
IT IS SO ORDERED.
Signed July 9th, 2019.

________________________________
ED KINKEADE
UNITED STATES DISTRICT JUDGE

6

Allen v. United States
Petition Appendix

10a

19-11000.1083

AO 245 S (Rev. 9/96)(N.D.Tx. Rev.2.0) Sheet I - Jud ment in a Criminal Case

Case 3:96-cr-00256-K Document 67 Filed 04/02/97

Page 1 of 5 PageID 9

Wnittb ~tates 1-District <!to .rt

'JR\G\NAL
.,..._

Northern District of Texas

I
I

Dallas Division

A!3R - 2 1997

I

i
i

NANCY DOHERTY, CLE~

l-Bv-------~
---Deputy

UNITED STATES OF AMERICA

Case Number 3:96-CR-256-X (01)

V.

RODNEY BERNARD ALLEN
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
The defendant, RODNEY BERNARD ALLEN, was represented by Joseph H. Lobley.
The defendant was found guilty on count(s) 1 by a jury verdict on December 16, 1996, after a plea of not guilty.
Accordingly, the defendant is adjudged guilty of such count(s), involving the following offense(s):
Count
Title & Section
Date of Offense
Nature of Offense
Number(s)
18 USC§§ 922(g)(l)
and 924(e)(1)

Felon in Possession of a
Firearm

12/31/95

1

As pronounced on March 31, 1997, the defendant is sentenced as provided in pages 1 through 5 of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.

It is ordered that the defendant shall pay to the United States a special assessment of $50, for count(s) 1, which shall be
due immediately. Said special assessment shall be made to the Clerk, U.S. District Court.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this Judgment are fully
paid.

.J

Signed this the

).

day of April, 1997.

JotY'Kendall
UNITED STATES DISTRICT JUDGE
Defendant's SSN: 464-33-7829
Defendant's Date of Birth: 02/10/65
Defendant's Address: 1109 Fairhaven; Garland, Texas 75242
Defendant's USM No: 28935-077

19-11000.25
Allen v. United States
Petition Appendix

11a

Case 3:96-cr-00256-K Document 67 Filed 04/02/97

Page 2 of 5 PageID 10

AO 245 S (Rev. 9/96)(N.D.Tx. Rev. 2.0) Sheet 2 -Imprisonment

Judgment--Page 2 of 5

Defendant: RODNEY BERNARD ALLEN
Case Number: 3:96-CR-256-X (01)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to
be imprisoned for a term of two hundred ninety-three (293) months.

The defendant shall remain in custody pending service of sentence.

RETURN
I have executed this Judgment as follows:

Defendant delivered on
- - - - - - to
at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _..J with a certified copy of this Judgment.

-------------------

United States Marshal
By _ _ _ _ _ _ _ _ _ _ __
Deputy Marshal

19-11000.26
Allen v. United States
Petition Appendix

12a

Case 3:96-cr-00256-K Document 67 Filed 04/02/97

Page 3 of 5 PageID 11

AO 245 S (Rev. 10/93)(N.D.TX. Rev. 2.0) Sheet 3 - Supervised Release

Judgment--Page 3 of 5

Defendant: RODNEY BERNARD ALLEN
Case Number: 3:96-CR-256-X (01)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of five (5) years.

The defendant shall report to the probation office in the district to which the defendant is released within 72 hours
of release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state, or local crime.
The defendant shall not illegally possess a controlled substance.

For offenses committed on or after September 13, 1994:
The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug
test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as directed by the probation

officer.

181 The above drug testing condition is suspended based on the court's determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable)

181 The defendant shall not possess a firearm as defined in 18 U.S.C. § 921. (Check, if applicable)
If this judgment imposes a fine or a restitution obligation, it shall be a condition of supervised release that the
defendant pay any such fine or restitution that remains unpaid at the commencement of the term of supervised release in
accordance with the Fine and Restitution sheet of the judgment.
The defendant shall comply with the standard conditions that have been adopted by this court (set forth below).
The defendant shall also comply with the additional conditions on the attached page.

STANDARD CONDffiONS OF SUPERVISION
I)
2)
3)
4)
5)
6)
7)
8)
9)
I 0)
11)
12)
13)

The defendant shall not leave the judicial district without the permission of the court or probation officer.
The defendant shall report to the probation officer as directed by the court or probation officer and shall submit a
truthful and complete written report within the first five days of each month.
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer.
The defendant shall support his or her dependents and meet other family responsibilities.
The defendant shall work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons.
The defendant shall notify the probation officer within 10 days of any change in residence or employment.
The defendant shall refrain from excessive use of alcohol.
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or
administered.
The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person
convicted of a felony unless granted permission to do so by the probation officer.
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer.
The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a ]aw
enforcement officer.
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the court.
As directed by the probation officer, the defendant shall notify third parties of risks that may be·occasioned by the
defendant's criminal record or personal history or characteristics, and shall permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.

19-11000.27
Allen v. United States
Petition Appendix

13a

Case 3:96-cr-00256-K Document 67 Filed 04/02/97

Page 4 of 5 PageID 12

AO 245 S (Rev. 9/96)(N.D.TX. Rev. 2.0) Sheet 3a - Supervised Release

Defendant: RODNEY BERNARD ALLEN
Case Number: 3:96-CR-256-X (01)

Judgment--Page 4 of 5

SPECIAL CONDITIONS OF SUPERVISION

While the defendant is on supervised release pursuant to this Judgment:
The defendant shall refrain from incurring new credit charges or opening additional lines of credit
without approval of the probation officer.
The defendant shall provide to the probation officer any requested financial information.
The defendant shall notify the probation officer at least IO days prior to any change of residence.
Standard Condition No. 6 will apply only to changes in employment.

19-11000.28
Allen v. United States
Petition Appendix

14a

Case 3:96-cr-00256-K Document 67 Filed 04/02/97

Page 5 of 5 PageID 13

AO 245 S (Rev. 9/96)(N.D. Tx. Rev. 2.0) Sheet 7 - Statement of Reasons

Judgment--Page 5 of 5

Defendant: RODNEY BERNARD ALLEN
Case Number: 3:96-CR-256-X (01)

STATEMENT OF REASONS

The court adopts the factual findings and guideline application in the presentence report and
addendum except: the Court is not enhancing 2 levels for obstruction of justice.
Guideline Range Determined by the Court:

Total Offense Level:
Criminal History Category:
Imprisonment Range:
Supervised Release· Range:
Fine Range:
Restitution:

33
VI
235 to 293 months
3 to 5 years
$ 17,500 to $ 175,000
$NIA

The fine is waived because of the defendant's inability to pay.
The sentence is within the guideline range, that range exceeds 24 months, and the sentence
is imposed for the following reason(s): serious nature of the Criminal History Category - total
criminal history points are 23 pts. which are l.Q pts. higher than the maximum of the guideline table.

19-11000.29
Allen v. United States
Petition Appendix

15a

